DOE/IG-0437




         AUDIT
        REPORT

                                AIRCRAFT AND AIR SERVICE
                                 MANAGEMENT PROGRAMS




                                           JANUARY 1999




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                             January 25, 1999

MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman
                      Inspector General

SUBJECT:              INFORMATION: Audit Report on "Aircraft and Air Service Management
                      Programs"

BACKGROUND

The Department of Energy's (Department) Albuquerque Operations Office (Albuquerque) owns seven
aircraft that support defense programs, research and development efforts, emergency response programs,
and official travel of Government and contractor employees. An Office of Inspector General (OIG) report,
issued in 1994, identified concerns with Albuquerque's cost for air service. Since that report, there have
been reductions in cost and personnel indicating changes in air service requirements. We conducted this
audit to determine (1) whether costs to operate Albuquerque's aircraft
were excessive and (2) if individual aircraft in the fleet were justified.

On January 7, 1999, the OIG issued a separate report on its Review of the U.S. Department of Energy’s
Aircraft Activities, (DOE/IG-0435). This report assessed aircraft operations nationwide, and suggested that
enhanced centralized management was needed to ensure that new and existing aircraft were justified based
on mission needs, and that program costs were minimized.

RESULTS OF AUDIT

Costs to operate the Department's aircraft at Albuquerque were excessive because of the number of
personnel employed by the air service contractor. Projected costs to operate Albuquerque's aircraft over the
next two years will be as much as $5.7 million more than necessary. Although the costs could be reduced by
recompeting a new contract, Albuquerque decided not to recompete based on a perceived concern for
continuity of service in the event of a change in aircraft management contractors. Further, Albuquerque was
concerned that its own in-house analysis of the aircraft costs did not consider all factors.

In addition, we concluded that the retention by Albuquerque of at least one aircraft was not justified. This
aircraft was used to transport passengers between Albuquerque, New Mexico and Amarillo, Texas. The
audit disclosed that the commercial round trip fare between these cities was as much as $185. This was in
contrast with $1,474 per person per round trip, the current cost to the Department for use of the
Government aircraft for the same trip. We found that the Albuquerque Transportation Safeguards Division's
analysis of the service performed did not consider the full cost of the service.

MANAGEMENT REACTION

Management concurred with our recommendation to take aggressive and immediate action to significantly
reduce the cost of the air services. However, Albuquerque did not submit a corrective action plan that
described how it would achieve the projected savings described in the report. Management agreed to
terminate the Amarillo shuttle service effective December 30, 1998, but did not concur with our
recommendation to sell the BE-200 King Air aircraft used for the Amarillo shuttle.

Attachment

cc: Acting Deputy Secretary
    Under Secretary
AIRCRAFT AND AIR SERVICE MANAGEMENT PROGRAMS

 TABLE OF
 CONTENTS

                 Overview

                 Aircraft and Air Service Management Programs............. 1


                 Air Service Costs


                 Details of Finding............................................................ 3


                 Recommendation and Comments................................... 5


                 Aircraft Justification


                 Details of Finding............................................................ 6


                 Recommendations and Comments ................................. 7


                 Appendices


                 Calculation of Savings on Air Service Costs................. 10


                 Scope and Methodology ............................................... 11
OVERVIEW
INTRODUCTION AND   The Albuquerque Operations Office (Albuquerque) owns seven aircraft
OBJECTIVE          that support transportation of hazardous weapon components, research
                   and development efforts, emergency response needs, and movement of
                   passengers to Department of Energy (Department) sites. Albuquerque's
                   aircraft are managed by the Transportation Safeguards Division (TSD)
                   and operated by a support service contractor, Ross Aviation
                   Incorporated (Ross). Ross has operated Albuquerque's aircraft since
                   1972. In 1994, the Office of Inspector General (OIG) issued a report,
                   Audit of Aircraft Management at the Albuquerque Operations Office,
                   CR-B-94-05, that identified concerns with costs of air service provided
                   by Albuquerque. Since then, Albuquerque has terminated some
                   unnecessary air services, reduced aircraft fleet size, reduced annual
                   costs, and changed the aviation contract from a management and
                   operating contract to a support service contract. The change in contract
                   type was based on the perception that the support service contract
                   would be more cost effective. In fact, the number of aircraft in the fleet
                   has declined from nine in Fiscal Year (FY) 1994 to seven in FY 1998,
                   and annual costs have declined from over $15 million per year in FY
                   1994 to less than $10 million in FY 1998.

                   The objectives of our audit were to determine (1) whether costs to
                   operate Albuquerque's aircraft were excessive and (2) if aircraft in the
                   fleet were justified.

                   Costs to operate the Department's aircraft at Albuquerque were
CONCLUSIONS AND
                   excessive based on both an in-house cost analysis and our comparison of
OBSERVATIONS       costs to published standards. Based on TSD's analysis, the projected
                   costs to operate the aircraft for the next two years will be as much as
                   $5.7 million more than necessary primarily because of an excessive
                   number of contractor personnel. Although the TSD analysis
                   recommended recompeting the contract, Albuquerque decided not to do
                   so based on concerns about the need for continuity of service.
                   Albuquerque was also concerned with the validity of the TSD analysis.

                   Further, Albuquerque justified six of the seven aircraft based on unique
                   and necessary services for the Department. The seventh plane was not
                   justified on that basis. This aircraft was used to transport passengers
                   between Albuquerque, New Mexico, and Amarillo, Texas, at a cost of
                   $1,474 per person per round trip. This compared to readily available
                   commercial fares of as much as $185 per person per round trip. This
                   occurred because a full cost comparison for this aircraft was not
                   performed in accordance with Office of Management and Budget



Page 1                              Aircraft And Air Service Management Programs
         Circulars A-126 and A-76. Instead, justification for the aircraft was
         based on convenience and cost evaluations that did not consider the full
         cost of the aircraft.

         In our opinion, the matters discussed in this report should be considered
         when preparing the yearend assurance memorandum on internal
         controls.




                                          _____(SIGNED)________
                                          Office of Inspector General




Page 2                    Aircraft And Air Service Management Programs
AIR SERVICE COSTS
Excessive Air       Costs for air service appeared excessive based on an internal TSD
Service Costs       analysis. The purpose of TSD's analysis was to determine the most
                    advantageous and cost effective approach to fulfilling Albuquerque's
                    requirements for air service. The TSD analysis relied upon standards
                    published by Conklin & deDecker to identify hourly costs for various
                    types of aircraft. Conklin & deDecker, a leader in establishing standards
                    for aircraft, has earned a reputation for offering the most realistic
                    numbers available for aircraft costs.

                    The analysis was performed during the spring of 1998 because the
                    contract with Ross would expire on April 30, 1999, and a determination
                    had to be made either to recompete the contract or extend the period of
                    performance with Ross. The analysis evaluated the cost of exercising a
                    two-year extension with Ross versus converting the aircraft service to
                    another form of operation. The operational methods considered were
                    (1) a fixed price Contractor-Owned Contractor-Operated (CoCo)
                    contract, (2) a fixed price Government-Owned Contractor-Operated
                    (GoCo) contract, and (3) a Government-Owned Government-Operated
                    (GoGo) operation. Factors considered in the analysis included
                    continuity of service, transition of maintenance agreements, and
                    technical requirements. The following chart shows the costs per flight
                    hour under each option considered.

                                          Average Cost Per Flight Hour
                                           Under Options Considered

                           Extend Current Cost Contract                             $4,180
                           Fixed Price CoCo                                $3,041
                           Fixed Price GoCo                                $2,362
                           GoGo Operation                                  $2,303

                    Extending the current contract was found to be the most expensive
                    option. Further, according to the TSD analysis, the cost of the current
                    contract was significantly higher than the industry standard for similar
                    operations with equivalent aircraft. In discussions with the Audit staff,
                    TSD managers explained that the high costs were associated primarily
                    with overstaffing at Ross. Specifically, they questioned the need for a
                    staff of 68 to operate a 2,400 flight hour per year program. In addition
                    to these 68 personnel, major maintenance to the three DC-9 aircraft at
                    Albuquerque is performed by a subcontractor to Ross. The analysis
                    disclosed that there was a sufficient level of interest by fully qualified
                    vendors in the aviation industry to obtain competition in bids/proposals



Page 3                                                                   Details Of Finding
                       vendors in the aviation industry to obtain competition in bids/proposals
                       for a fixed price contract and for the achievement of significant savings
                       for Albuquerque without any noticeable change in the service provided.
                       TSD's analysis recommended a competitively awarded new contract to
                       bring costs in line with industry standards.

                       To validate TSD's analysis, we compared Ross' cost per flight hour to
                       standard costs published by Conklin & deDecker. Our conclusion was
                       consistent with the results of the TSD analysis. In summary, we found
                       that Albuquerque’s costs were excessive. For example, we found that
                       the standard per hour cost to operate a DC-9 was $2,805 while Ross'
                       cost to operate the same aircraft was $4,531.

Importance Of          In accordance with the 1993 National Performance Review,
Benchmarking           Albuquerque benchmarked its contractor's performance against
                       standards used by private industry and other methods of acquiring
                       similar services. In spite of the TSD analysis showing significantly
                       higher cost under the current contract and recommending to
                       competitively award a new contract, Albuquerque decided to exercise
                       the two-year contract extension with Ross. Management stated that the
                       decision was based on the need for continuity of service because
                       transition to a new contractor could disrupt air service and impact
                       security. However, we found that the TSD analysis stated that
                       continuity of service could be maintained even if Ross was not the
                       successful bidder for the new contract.

                       Albuquerque expressed concern that both the TSD analysis and our
                       comparison to industry cost standards did not consider several factors.
                       For example, Albuquerque contended that the recognized standards did
                       not consider costs associated with factors specific to the Government
                       such as the cost to comply with unique Department Orders and
                       regulations. While we recognize that operating in a Government
                       environment may have some additional cost associated with it,
                       management did not quantify the costs of complying with Orders and
                       regulations. Thus, the decision to extend the contract with Ross does
                       not appear adequately justified.

                       Our comparison with published standards supports TSD's conclusion
Potential Savings On   that the cost of the current contract was significantly higher than other
Air Service Costs      viable options. Based on the TSD analysis, as much as $5.7 million
                       could be saved over the two-year contract extension period by
                       recompeting a new contract. (See Appendix 1 for details.) Nonetheless,
                       Albuquerque has elected to extend the contract with Ross. Under the


Page 4                                                                      Details Of Finding
                   circumstances, Albuquerque should, as a minimum, negotiate a
                   reduction in costs to bring them in line with the industry standards as
                   disclosed in the TSD analysis.

RECOMMENDATION     We recommend that the Manager, Albuquerque Operations Office, take
                   aggressive and immediate action to significantly reduce the cost of air
                   services.

MANAGEMENT         Albuquerque concurred with the recommendation, reiterating prior
REACTION           actions it had taken to reduce costs. Management stated that it will
                   continue to be proactive in determining ways to reduce the overall
                   aviation service costs. Current award fee incentives will be stressed; and
                   the contractor will be required to update its resources management plan
                   indicating planned improvements, better utilization of personnel, and
                   ways to achieve efficiencies through automation, outsourcing, and
                   personnel reductions.

AUDITOR COMMENTS   Although Albuquerque concurred with the recommendation, it did not
                   establish a corrective action plan that will achieve savings similar to the
                   amount projected by the TSD analysis. Albuquerque's air services costs
                   were simply too high, primarily because of contractor overstaffing. In
                   our opinion, Albuquerque must focus on reduced staffing to achieve
                   significant savings.




Page 5                                              Recommendation And Comments
AIRCRAFT JUSTIFICATION
Amarillo Passenger       Albuquerque justified six of its aircraft based on unique and necessary
                         services. We did not, as part of this audit, evaluate the validity of these
                         services. We found that one of Albuquerque's aircraft was not justified
                         based on unique or necessary services. This aircraft, a BE-200 King Air,
                         which at one point was identified as no longer having a valid mission,
                         was retained for use as a passenger shuttle between Albuquerque and
                         Amarillo two to three days per week.

                         The shuttle was not justified because a commercial carrier, Southwest
                         Airlines, provided service between Albuquerque and Amarillo.
                         Southwest had scheduled service seven days a week with two flights
                         from Albuquerque to Amarillo per day on Sunday through Friday and
                         one flight on Saturday. Returning from Amarillo, there were three
                         flights per day on Monday through Friday, and two flights per day on
                         Saturday and Sunday. Further, Southwest was the Government's
                         contract carrier for travel between Albuquerque and Amarillo.

                         The cost to provide the Albuquerque to Amarillo shuttle was excessive
                         compared to the use of the commercial carrier. Based on the total
                         contractor cost of operating this aircraft, the cost per person per round
                         trip using Ross was $1,474. In contrast, the commercial carrier round
                         trip was as high as $185.

                         In the Office of Inspector General’s 1994 audit on Albuquerque’s
                         aircraft service, we encountered a similar situation. In that audit we
                         questioned the economic viability of passenger shuttle service which the
                         Department was operating between Albuquerque and Los Alamos, New
                         Mexico. After our report was issued, the Department, to its credit,
                         terminated this service.

                         Circular A-126, Improving the Management and Use of Government
Review For Continuing    Aircraft, establishes policy for improving the management and use of
Need And Cost            Government aviation resources. Specifically, it requires Government
Effectiveness Required   departments to "... review periodically the continuing need for all of
                         their aircraft and the cost effectiveness of their aircraft operations in
                         accordance with the requirements of Circular No. A-76." Circular
                         A-126 also states that Government aircraft can be used for official travel
                         only if commercial airline service is not available within a 24-hour period
                         of the traveler's departure and/or arrival requirements. Circular A-76
                         establishes Federal policy regarding the performance of commercial
                         activities. It states that the Government should not compete with its
                         citizens and that the general policy of the Government is to rely on
                         commercial sources to supply its needs. It further prescribes that the


Page 6                                                                      Details Of Finding
                       is to rely on commercial sources to supply its needs. It further
                       prescribes that the Department must release all aircraft that are not fully
                       justified by these reviews.

Convenience And Cost   TSD stated that the shuttle was necessary because commercial airline
Considerations         schedules did not allow employees to travel to Amarillo in the morning
                       and return on the same evening, thereby avoiding hotel and per diem
                       costs. In the 12 months we reviewed, however, there were 952 round
                       trip passenger seats, but only 240 were used for same day travel.

                       TSD also justified the shuttle by claiming that it was cost effective.
                       However, it established cost effectiveness based on an analysis which
                       relied solely on variable costs. Variable costs are incurred as a direct
                       result of hours flown and include items such as fuel, direct crew costs,
                       landing fees, and specific maintenance costs; but not fixed costs such
                       as administrative overhead or crew salaries for time not flown.
                       Considering only variable costs, the shuttle appears cost effective.
                       However, the Circulars require periodic evaluation of cost effectiveness
                       using all costs, variable and fixed. Under such a comparison, the round
                       trip shuttle cost per actual rider was $1,474, or nearly 8 times the cost of
                       a commercial carrier fare.

                       For the 12 months reviewed, the cumulative cost difference between
Cost Of Service
                       the shuttle service and the commercial carrier was $504,000. This
                       cost difference is based on the contractor's cost of $1,474 per
                       person per round trip compared to the commercial fare of $185 plus
                       additional costs for hotel, per diem, parking at the airport, rental car,
                       and a miscellaneous allowance. We added these extra costs to the
                       commercial fare to consider the possibility that passengers would need
                       to fly to Amarillo a day prior to a visit in case the commercial schedule
                       did not meet their needs. These additions increased our commercial cost
                       to $324 per person per round trip. The difference between $1,474 and
                       $324 multiplied by the total number of round trips flown in the 12
                       months reviewed totaled $504,000. The $504,000 could be avoided if
                       the shuttle service was terminated. In addition, the value of the aircraft
                       could be recovered if it was sold. Its estimated value is about $1.5
                       million.

                       We recommend that the Manager, Albuquerque Operations Office, take
RECOMMENDATIONS        action to end this service. Specifically, Albuquerque should:

                       1. Terminate the shuttle service and reduce the contract scope of work;
                          and

Page 7                                                  Recommendations And Comments
                   2. Sell the BE-200 King Air used for the shuttle service at market value.

                   Albuquerque concurred with the first recommendation, agreeing to
                   terminate the shuttle service on December 30, 1998. This action has
MANAGEMENT
                   been taken.
REACTION
                   In responding to the second recommendation to sell the BE-200 King
                   Air aircraft at market value, Albuquerque said it would retain the aircraft
                   because it performs a valid mission as detailed in Albuquerque's Aircraft
                   Operations Review. Albuquerque claimed that in FY 1998, the aircraft
                   was flown 134 hours in support of its nuclear stockpile support mission.
                   In FY 1997 and FY 1996, this aircraft flew 118 hours and 285 hours,
                   respectively, of mission support. Further, Albuquerque said that Federal
                   Acquisition Regulations do not allow for an agency to sell an aircraft
                   and directly recover any moneys for discretionary use. Moreover,
                   Management stated that the value the OIG placed on the aircraft was
                   too high and it did not have a way to directly recover any moneys from
                   such a sale for discretionary use.

                   With regard to the cost figures used by the OIG for the Amarillo shuttle
                   cost, Albuquerque claimed that the operating cost (variable cost) of
                   flying to Amarillo was $1,560 per round trip flight based on a $600 per
                   hour aircraft cost. Management claimed that the trip reached a break
                   even at only 4.2 seats.

                   Albuquerque's termination of scheduled air service is appropriate. The
                   OIG has learned, however, that Albuquerque does not plan to sell the
AUDITOR COMMENTS
                   aircraft. Furthermore, Albuquerque recently advertised use of the
                   aircraft for trips to Amarillo on an as needed basis. In light of the cost
                   differences cited in this report, using the aircraft on this basis does not
                   appear to be justified.

                   Although the Aircraft Operations Review described a mission
                   requirement, that requirement was not unique to the BE-200 King
                   Air aircraft. Two other aircraft were available, compatible, and had
                   ample hours to satisfy the required services. Further, in Albuquerque's
                   FY 1999 Field Budget Call for purchase of a new aircraft, Albuquerque
                   stated that it no longer had a mission need for the BE-200 King Air.




Page 8                                               Recommendations And Comments
         The issue of whether aircraft sale proceeds can be used at an agency's
         discretion should not be central to a decision on such a sale. If an
         aircraft is excess to agency need, the taxpayer should no longer bear the
         burden of maintaining the aircraft and it should be excessed using normal
         channels.

         The value placed on the aircraft by the OIG was obtained directly from a
         March 30, 1998, issue paper prepared by the Aviation Program and
         transmitted through TSD to the Albuquerque Manager. This document
         stated that the sale of the BE-200 King Air could result in proceeds of
         $1.5 million. This figure is also provided by the FY 1997 Albuquerque
         Aircraft Operations Review.

         The primary point of contention between the OIG and Albuquerque
         lies with the type of cost comparisons required by the OMB Circulars.
         Circular A-126 allows for cost comparisons to be performed to justify
         official travel for individual trips using variable cost only in comparison
         to commercial sources. However, when determining whether the
         Government should perform a service that can be performed by the
         commercial sector, Circular A-76 requires that the
         full cost of Government resources be considered in comparison to the
         cost of commercial sources. Since the BE-200 King Air's primary use
         was to regularly carry passengers to and from Amarillo, and there
         is a commercial source available to provide the service, the cost
         effectiveness should be reviewed in accordance with Circular A-76.




Page 9                                     Recommendations And Comments
Appendix 1
                       CALCULATION OF SAVINGS ON AIR SERVICE COSTS


     We used TSD's analysis to arrive at the potential savings amount. In considering its various options,
     TSD based its cost calculation for the new contract GoCo option on 2,750 flight hours per year even
     though the current contract costs are based on 2,387 flight hours per year. Since the GoCo option
     was based on a fixed price, it was given more flight hours as a cushion to cover special needs. Thus,
     the lower-priced option allows for more flight time than the contract extension. In addition, we
     determined that the cost to extend the current contract, as calculated by TSD, included cost to be
     paid to close out a defined benefit pension program. In order to make the comparison fair, we
     subtracted this amount as well.


                                              Hours for 2 Years       Hourly Rate         Total Costs
          Cost to Extend Current Contract          4,774                $4,180           $19,955,320
          Less: New Contract GoCo Option           5,500                $2,362           $12,991,000
                Pension Plan Closeout                                                    $ 1,230,000
          Total Savings                                                                  $ 5,734,320




Page 10                                                                 Calculation Of Savings On Air
                                                                        Service Costs
Appendix 2
SCOPE         The audit was performed at Albuquerque from September 16 to
              November 25, 1998. We limited our review to aircraft and air
              service management owned by the Department and operated for the
              Albuquerque Operations Office. The aircraft included in our review
              were: three DC-9 aircraft, two DHC-6 Twin Otter aircraft, one
              LR-35 Lear Jet, and one BE-200 King Air.

METHODOLOGY   To accomplish the audit objective, we:

                 • obtained usage data per aircraft for the period October 1, 1992
                   through September 30, 1998;

                 • obtained cost data for the program for the period October 1,
                   1992 through September 30, 1998;

                 • performed detailed analyses of individual trip reports for the
                   period September 1, 1997 through August 31, 1998;

                 • reviewed the mission requirements for each aircraft;

                 • compared cost per flight hour for Albuquerque's aircraft to
                   standards published by Conklin & deDecker; and

                 • held meetings with TSD officials to discuss issues.

              We performed detailed analyses of passenger loads for aircraft that did
              not have a clear Defense Programs related mission. Standards published
              by Conklin & deDecker in The Aircraft Cost Evaluator are used by
              aircraft manufacturers, dealers, distributors, and brokers for use in
              presentations and proposals for the sale or lease of specific aircraft to
              their customers. Over the years, The Aircraft Cost Evaluator has earned
              a reputation for offering the most realistic numbers available.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the objectives of the audit. Because our
              review was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit. We
              performed limited testing of the reliability of computer-processed data
              and concluded that the data could be relied upon.

              Albuquerque waived the exit conference.


Page 11                                                    Scope And Methodology
                                                                           Report No. DOE/IG-0437


                                 CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and, therefore,
ask that you consider sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date_________________________________

Telephone________________________________Organization___________________________

When you have completed this form, you may telex it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
   effective as possible. Therefore, this report will be available electronically through the Internet at the
                                        following alternative address:


               U.S. Department of Energy Human Resources and Administration Home Page
                                       http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form
attached to the report.

                                    This report can be obtained from the
                                        U.S. Department of Energy
                               Office of Scientific and Technical Information
                                                P.O. Box 62
                                       Oak Ridge, Tennessee 37831
